            Office of Inspector General




September 24, 2004

JOHNRAY EGELHOFF
MANAGER, NEVADA-SIERRA DISTRICT

SUBJECT: Audit Report – Self-Service Vending Program – Nevada-Sierra District
         (Report Number DR-AR-04-009)

This is one of a series of audit reports on the Self-Service Vending Program in
the Pacific Area. The report presents the results of our self-initiated audit on the
Self-Service Vending Program in the Nevada-Sierra District (Project Number
04YG016DR004). The information in this district report will be included in a report to
the Pacific Area Vice President.
                                                Background

The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.

Nationwide, the Postal Service maintains approximately 30,000 vending machines
(27,000 self-service postal centers and 3,000 other types of vending equipment) that
generated over $1.9 billion in revenue during fiscal years (FY) 2001 through 2003.
During FY 2003, the Pacific Area had 3,325 pieces of vending equipment that
generated over $145 million in revenue. The Nevada-Sierra District maintained
7 percent (221) of the total area machines that generated over 6 percent ($9 million) of
the total area vending revenue. During the first quarter of FY 2004, the Pacific Area had
3,395 pieces of vending equipment that generated over $37.3 million in revenue. The
Nevada-Sierra District maintained 7 percent (226) of the total area machines that
generated over 6 percent ($2.4 million) of the total area vending revenue.1

                              Objective, Scope, and Methodology
The objective of our audit was to determine whether the Self-Service Vending Program
was effectively and efficiently meeting program goals of increasing revenue and
1
  During the first quarter of FY 2004, the Pacific Area had 70 additional vending machines and the Nevada-Sierra
District had 5 additional vending machines.


   1735 N Lynn St..
   Arlington, VA 22209-2020
   (703) 248-2100
    Fax: (703) 248-2256
Self-Service Vending Program –                                               DR-AR-04-009
 Nevada-Sierra District


reducing operating costs. Specifically, in this review, we determined whether
Self-Service Vending Program managers have effectively redeployed vending
equipment that does not meet minimum revenue requirements in order to maximize
revenue, and discontinued the use of obsolete vending equipment. We also physically
observed a judgmental sample of 17 vending machines to determine whether the
machines were operational and easily accessible. For the 221 vending machines
operating in the Nevada-Sierra District in FY 2003, 34 were classified as obsolete based
on Postal Service guidance, while the remaining 187 were classified as current
equipment. For the first quarter of FY 2004, 226 vending machines were operating in
the Nevada-Sierra District, of which 34 were classified as obsolete, and the remaining
192 were classified as current equipment.

During our audit, we visited Postal Service facilities and interviewed managers and
employees; reviewed documentation and applicable policies and procedures; and
analyzed data in the Postal Service’s Vending Equipment Sales and Service System
(VESS) for FY 2003 and the first quarter of FY 2004 to identify obsolete equipment and
equipment that did not meet the minimum revenue requirements.2 Although we relied
on data obtained from VESS, we did not test the validity of the data and controls over
the system.

Audit work associated with the Nevada-Sierra District was conducted from
March through September 2004 in accordance with generally accepted government
auditing standards and included such tests of internal controls as were considered
necessary under the circumstances. We discussed our observations and conclusions
with appropriate management officials and included their comments, where appropriate.

                                         Prior Audit Coverage

The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-003,
June 30, 2004), Self-Service Vending Program - Alabama District (Report Number
DR-AR-04-004, June 30, 2004), and Self-Service Vending Program - Atlanta District
(Report Number DR-AR-04-002, July 1, 2004). The reports stated that district officials
could improve their process for redeploying vending equipment that does not meet
minimum revenue requirements. In FY 2003, 54 percent (857 of 1,573 machines) of the
vending machines in the Tennessee, Alabama, and Atlanta, Districts did not meet the
minimum revenue requirements and the districts may have missed revenue
opportunities totaling approximately $2.7 to $8.5 million by not redeploying this
equipment. Additionally, these districts continued to use 250 obsolete machines and
possibly incurred maintenance and repair expenses. Management agreed with all


2
    Obsolete equipment was not included in the minimum revenue analysis.



                                                        2
Self-Service Vending Program –                                                                         DR-AR-04-009
 Nevada-Sierra District


recommendations and the actions taken and planned were responsive to the
recommendations.

                                               Audit Results
Opportunities exist for Nevada-Sierra District officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Specifically, Nevada-Sierra officials
could increase revenue opportunities by redeploying equipment that does not meet
minimum revenue requirements. Further, Nevada-Sierra District officials could possibly
reduce maintenance and repair costs by discontinuing the use of obsolete equipment.
However, our physical observation of vending machines in the Nevada-Sierra District
indicated that overall the machines were operational and easily accessible.

Redeployment of Vending Equipment

Nevada-Sierra District officials could improve their process for redeploying vending
equipment that does not meet Postal Service minimum revenue requirements.
Specifically, during FY 2003, our review of the vending equipment revenue reports
indicated that 55 percent (102 of 187) of the vending machines did not meet the
minimum revenue requirements during FY 2003. Vending equipment sales were
approximately $1.6 million, which was significantly less than the minimum revenue
requirement of $3.2 million. As a result, the Nevada-Sierra District may have missed
revenue opportunities of approximately $400,000 to $1.5 million by not redeploying this
equipment.3

Additionally, during the first quarter of FY 2004, our review of vending equipment
revenue reports indicated that 52 percent (100 of the 192 machines) of the vending
machines did not meet the minimum revenue requirements. Vending equipment sales
were approximately $336,000, which was significantly less than the minimum revenue
requirement of $653,000. As a result, the Nevada-Sierra District may have missed
revenue opportunities of approximately $317,000 by not redeploying this equipment.

One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does
not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self-Service Vending Operational and Marketing Program,
Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions through
December 25, 2003), establishes the minimum revenue requirements for vending
3
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $400,000 represents the
minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $1.5 million represents the maximum total possible missed
revenue opportunities for FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.



                                                        3
Self-Service Vending Program –                                                                           DR-AR-04-009
 Nevada-Sierra District


machines. The district retail office is responsible for evaluating equipment revenue to
find the right location for the right machine. If self-service vending equipment is located
in an area where it is unable to generate enough revenue to meet the minimum
requirement, the equipment must be considered for redeployment. If revenue does not
meet the minimum requirement in three to six accounting periods, the district retail office
should place the equipment on a list for redeployment; notify any office where changes
will be made; prepare a typewritten or computer-generated notice, approved through the
district retail office, to be posted in the lobby informing customers 30 days before
removing the equipment; and complete Postal Service Form 4805, Maintenance Work
Order, and move the equipment to a better location.

District officials took action to redeploy six vending machines that did not meet minimum
revenue requirements during FY 2003.4 For the remaining 181 machines, district
officials did not initiate any redeployment action. Additionally, during the first quarter
of FY 2004, district officials did not initiate any redeployment actions for the
100 underperforming machines. District officials did not initiate any redeployment
action for the underperforming vending machines during FY 2003 and the first quarter of
FY 2004 because of concern for the potential adverse impact on customer service due
to the nonavailability of machines. District officials also indicated that the required
replacement equipment needed for the redeployable locations had not yet been
allocated to the district location. By not taking action to redeploy under performing
equipment, the district could miss revenue opportunities during the remainder of
FY 2004.

We discussed the results with Nevada-Sierra District officials and they agreed they
could improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements. District officials stated that plans are being
made to reassess vending machine locations based on trend analysis of historical
vending data, communication with the self-service postal center technicians, and receipt
of 20 automated postal centers.5

Recommendation

We recommend the Manager, Nevada-Sierra District, direct the Retail Manager to:

1. Review revenue reports to identify underperforming equipment; notify postmasters of
   vending equipment that generates low revenue; and giving consideration to all
   feasible alternatives, complete all necessary actions to redeploy underperforming
   equipment as often as possible.



4
  Our review of the revenue reports for the first quarter of FY 2004 indicated that three of the six machines did not
meet minimum revenue requirements.
5
  Automated postal centers are a newly developed kiosk that provides convenient 24-hour automated access to
purchase stamps as well as many premium delivery services such as Express and Priority Mail.



                                                          4
Self-Service Vending Program –                                                                DR-AR-04-009
 Nevada-Sierra District


Management’s Comments

Management agreed with the finding and recommendation and issued an action plan
July 1, 2004, to redeploy vending machines as they become available beginning
August 4, 2004. In addition, 18 vending machines will be redeployed beginning
November 11, 2004, when the new automated postal centers are deployed.
Management will continue to review revenue reports to identify machines not meeting
minimum revenue requirements and place them in locations that provide the
opportunities to reach minimum revenue goals. Management’s comments, in their
entirety, are included in the appendix of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
planned actions should correct the issues identified in the finding.

Use of Obsolete Equipment

In FY 2003, Nevada-Sierra District officials continued to use 34 obsolete machines and
possibly incurred maintenance and repair expenses, even though Postal Service policy
discontinued the maintenance and repair support for the machines in June 2000.6 Our
review of vending equipment revenue reports indicated that 97 percent (33 of 34) of the
machines during FY 2003 and all of the machines during the first quarter of FY 2004 did
not meet minimum revenue requirements.

District officials stated they continued to use and maintain the obsolete equipment
because of the potential adverse impact on customer service. As a result, during
FY 2003 and the first quarter of FY 2004, the district possibly incurred maintenance and
repair expenses that may have exceeded the revenue generated by continuing to
operate and maintain the obsolete machines. We were unable to determine the amount
of repair and maintenance expenses associated with the machines because the Postal
Service does not capture the data for each machine. 7

Periodically, the Postal Service lists vending equipment as obsolete, meaning the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be
reported to the district material management specialist. When retail vending equipment
items are obsolete or listed as excess, the Postal Service may consider them for
disposal action. Parts from obsolete machines may be salvaged and stored for
maintenance or repair of other compatible equipment. In June 2000, Postal Service


6
  This policy supplements Maintenance Management Order, MMO-018-96, June 21, 1996, Discontinuance of Support
for Obsolete Vending Machines. This MMO includes discontinuance of support for recently obsolete models of
vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued on May 18, 2000.
7
  We plan to address this issue in a capping report to Postal Service Headquarters officials.



                                                    5
Self-Service Vending Program –                                                DR-AR-04-009
 Nevada-Sierra District


policy listed the obsolete vending equipment that should no longer receive support from
maintenance organizations.

By continuing to use and maintain obsolete machines, the district will possibly incur
repair and maintenance costs that may exceed the revenue generated. We recognize
management’s desire to provide customer service; however, because the Postal
Service does not capture repair and maintenance, management has no means of
assessing whether the benefits of operating the obsolete equipment outweigh the cost
to operate it. District officials stated that plans will be made to replace the obsolete
machines when the new automated postal center machines are deployed to the district
location.

Recommendation

We recommend the Manager, Nevada-Sierra District, direct the Retail Manager to:

2. Consider all feasible alternatives, and complete all necessary actions to eliminate
   repair and maintenance cost for the obsolete equipment.

Management’s Comments

Management agreed with the finding and recommendation and stated that even though
the obsolete machines require very little maintenance, they plan to remove the
equipment beginning August 4, 2004, as equipment fails. This will be an on-going
process until all 34 machines are removed.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
planned actions should correct the issues identified in the finding.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




                                           6
Self-Service Vending Program –                                             DR-AR-04-009
 Nevada-Sierra District


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Debra D. Pettitt, Director,
Delivery and Retail, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: John A. Rapp
    Alfred Iniguez
    Lani R. Meneses
    Charlene B. McComb
    Ralph G. Lindsey
    Steven R. Phelps




                                         7
Self-Service Vending Program –                           DR-AR-04-009
 Nevada-Sierra District




                       APPENDIX. MANAGEMENT’S COMMENTS




                                 8
